Laboratory Data Quality at Federal Facility
Superfund Sites
                                      Table of Contents
 •   EXECUTIVE SUMMARY
 •   PURPOSE
 •   FINDING

     Laboratory Data Quality at Federal Facility Superfund Sites

            Results in Brief

            Background

            Serious Problems With Laboratory Data Quality

            Quality Assurance Project Plans Not Well Designed

            EPA Oversight Insufficient

            Federal Quality Systems Not Evaluated

            Laboratory Evaluations Not Shared

            EPA Oversight Role Not Defined

            Environmental Data Quality a Material Weakness

            Performance Measures Not Established

     Recommendations

     Agency Comments

 •   AUDIT SCOPE

     APPENDICES

        o   A Program Office Responses to Draft Report
        o   B Acronyms
        o   C How Federal Facilities on the NPL are Cleaned Up
        o   D Data Quality Problems
        o   E Definitions of Quality Assurance Activities
        o   F Planning Procedure for Defining Data Quality Objectives
        o   G Example of Quality Assurance Report
        o   H Activities Contacted During the Audit
        o   I Distribution
